1-



                                                CLOSEOUT FOR M97100038



     \   On 27 October 1997, an NSF staff member' informed us of an allegation of misconduct in
         science. A scientist2alleged that the subject3had published a paper that exploited the idea of
         an inexperienced re~earcher,~  without that researcher's permission. The scientist said that
         while the researcher was participating in an NSF p r ~ g r a mshe
                                                                         , ~ showed the subject the text
         and tables for a paper that she was planning to submit for publication and described her
         research and ideas related to it, but did not explain that they were confidential.
         Approximately one year later, the subject published a paper6 containing observational data
         about one of these ideas. The data had been extracted from a larger historical database
         managed by one of the subject's co-author's.

         Our comparison of the paper with the description of the researcher's idea confirmed that the
         paper contained observational data related to the idea. The data had been gathered ye&
         before the researcher's conversation with the subject. We learned that such observational
         data are maintained in large databases and may not necessarily be published until new
         theories are advanced. It is not atypical in this field for researchers to gather data from these
         databases and publish them in support of, or to refbte, these theories. We learned that the
         subject, who is well published in this field, may have been working on this idea prior to his
         conversations with the researcher. The researcher had received NSF funds to work
         principally in another scientist's laboratory7but had also visited and analyzed some data in
         the subject's laboratory.

         When we contacted the researcher for information, she requested confidential source status.
         To pursue this matter further, we would have had to contact the subject. If we had done that,
         the subject would have correctly deduced the researcher's identity. The researcher did not
         want her identity revealed because of the detrimental effect it would have on her career.
         Without contacting the subject for information, the evidence in this case does not permit a


         '-is                          a program manager for the    program in the Division 04-Jn
                                                                                                i                     the
         Directorate for                                                                                          ,

                                                                                           University School of
                            n.




             The citation :for the paper is:




                                                         page 1 of 1.                                   M97-3 8
                            CLOSEOUT FOR M97100038

distinction between two possibilities: first, that the subject had benefited from his
conversation with the researcher and after learning about her idea, had gathered data from the
database and published the paper; and, second, that the subject had been working in this area
prior to his conversation with the researcher and he had not benefited unethically from their
conversation. We concluded there was insufficient substance to proceed further with this
inquiry and closed the case.




cc: Staff Scientist, Legal, AIG-Oversight, IG




                                    page 2 of 2
